        AUDIT REPORT 

          AUDIT OF THE 

SMITHSONIAN INSTITUTION NETWORK 

  INFORMATION SYSTEM CONTROLS 

            Number A-04-05 


             January6,2005 





0     Srnithsonian Institution 

       Office of Inspector General
                                        SUMMARY
The Office of the Inspector General audited Smithsonian Institution (SI) network
information system controls. The purpose of the audit was to evaluate SI information
system controls for system access, network security, and operating and application system
configurations.

The following points were considerations throughout our audit: Adequate security of
information and the systems that process it is a fundamental management responsibility.
Of necessity, management must strike a reasonable balance between information
technology security and operational capability because some controls impede operations.
It is Smithsonian policy, as well as good business practice, that controls be established to
maintain accountability for the custody and use of resources and to provide reasonable
assurance that assets are safeguarded against loss or unauthorized use.

Our review identified network access control security weaknesses within the
Smithsonian's publicly accessible network, as well as opportunities to strengthen system
configurations for network devices, Windows, and UNIX operating systems and Oracle
database applications.

We recommended that the Chief Information Officer establish a process for performing
periodic network vulnerability scans of its secure, publicly accessible network; correct
server and workstation security holes and close unnecessary network open ports and
available services; and ensure network devices, operating systems, and database
applications are securely configured to industry standards.

The Chief Information Officer concurred with our recommendations and provided
implementation plans. We believe that these implementation plans are responsive to our
recommendations.
                                                 TABLE OF CONTENTS



1. Introduction ..................................................................................................................................... 1 


        A. Purpose .................................................................................................................................... 1 


        B. Scope and Methodology ........................................................................................................1 


2, Results of Audit ...............................................................................................................................2 


        A. Review of Publicly Accessible Network Controls                                ................................................................2 

        B. Review of Operating Systems and Oracle Database Application Security
        Configurations .............................................................................................................................7 


Appendix A. Policies and Industry Standards.................................................................................. 12 


Appendix B. Management Comments ............................................................................................. 15 


                                    ABBREVIATIONS AND ACRONYMS

NIST                   National Institute of Standards and Technology
OCIO                   Office of the Chief Information Officer
SANS                   SysAdmin, Audit, Network, Security Institute
SI                     Smithsonian Institution
SIRIS                  Smithsonian Institution Research Information System




                                                                     iii
                                   INTRODUCTION

A. Purpose

The purpose of the audit was to evaluate SI information system controls for system access,
network security, and operating and application system configurations.

B. Scope and Methodolow

The audit was conducted from November 14,2003,to December 3,2004, in accordance
with generally accepted government auditing standards.

The audit methodology consisted of the following:

       Identifying and reviewing applicable Institution policies and procedures related to
       general system controls, computer system security, and integrity of computer
       resources.
       Comparing SI system security settings with industry and Institution standards.
       Evaluating controls meant to safeguard and protect networks.
       Assessing the adequacy of controls meant to prevent and detect unauthorized
       activities.
       Utilizing guidance issued by the Smithsonian Office of the Chief Information
       Officer (OCIO),National Institute of Standards and Technology (NIST),National
       Security Agency, and Microsoft Corporation relating to system security
       configuration.

Our review also included interviews with SI technology staff, through which we gained an
understanding of the practices employed concerning system configuration, network
security, and system access.
                                       RESULTS OF AUDIT

A. Review of Publicly Accessible Network Controls

SI network security controls can be strengthened. Specifically, opportunities exist to
strengthen controls over network access and configuration settings for network devices.
During the audit, OCIO recognized that improvements were needed and has since begun
addressing these weaknesses. Until all weaknesses are addressed and corrective plans are
in place, SI computers residing on the SI network are at risk of unauthorized access,
denial of services, and the unnecessary disclosure of Smithsonian computer system
resources information.

Details of Review

As part of our network control testing, we performed external and internal network
vulnerability scanning of the SI's secure, publicly accessible network, and other critical
SI servers. In addition, we evaluated SI network routers and the primary SI firewall
configuration against industry security standards.' From our testing, we determined that
SI does have network monitoring controls in place. In addition, our testing determined
that network access controls could be strengthened to reduce risks such as the
unnecessary disclosure of system information. Also, our router and firewall
configuration reviews identified that some configuration modifications could strengthen
SI network access controls.

Network

As part of our network access control testing, we performed network scans on the internal
Smithsonian network and externally from the Internet. In addition, we performed
specific network reviews of web servers. From our testing, we identified network
weaknesses from the external and internal assessments.

External. We performed external network scans of selected Smithsonian Internet
addresses, including the Smithsonian domain name servers2 In addition, we identified
the Smithsonian network domain name servers and attempted to determine if a common
discovery vulnerability of Smithsonian computer names and addresses, known as a zone
transfer, was possible. Our tests were successful in performing a recursive domain name
address query. Zone transfers and recursive queries should be prevented because, if
successful, the results disclose the names and network addresses of the computers and
network devices residing on the network. Knowing the name and network addresses
gives an unauthorized user inside information on the network topology naming
convention, and therefore possibly the purpose of the computers.



' Appendix A contains a summary of policies and industry security standards used during this audit.
 The domain name servers' function is to manage and administer the computer names and addressing for
efficient communication across a network. The Smithsonian domain name servers contain approximately
12,000 computers.
From our internal network scans we selected 44 computers that had a range of security
holes and vulnerabilities. We also selected specific ports used on the Internet to target
from outside the Smithsonian network to determine if the same security holes and
vulnerabilities were discoverable. Our testing was successful in identifying 38 of the 44
computers from the Internet and 98 security holes. The majority of these security holes
dealt with common web server weaknesses related to ports 80,443, and 8080. The six
remaining computers were successfully filtered by the network firewall.

In addition to an external network scan, we browsed the computers using an internet
browser (Microsoft's Internet Explorer, for example) to evaluate the type of information
that could be gleaned from them. The browser tests determined that there were numerous
systems that leaked system information such as type of server, web application and
version, error pages, and browse file directories. The leaking of this type of information
is a risk and vulnerability in that unauthorized users of the systems could research and
exploit any weaknesses discovered. For example, the Smithsonian Institution Research
Information System (SIRIS) Image Server contains various files, directories, and links to
another SIRIS system. Following the link, we determined that there were 179 pages of
images and files that are downloadable without explicit permissions or adherence to the
Smithsonian Copyright statement. In addition, the SIRIS directory structure is
identifiable, including a listing of other Smithsonian computer addresses. Also, we
discovered a web server used as a test archive server for which we could not ascertain its
use or function. The web server's main page states it is used for E-Prints archiving.

Internal. Internally, we concentrated our testing on the Smithsonian secure public
network known as the DMZ (demilitarized zone). The secure public network contains
those web servers that communicate to the public through the Internet. Our web server
testing identified weaknesses in network access, information leakage from a common
gateway interface, default page displays, and files containing an account name and
password. The following table summarizes our web server reviews.

                         Web Server Review Summary (19 Servers)
                                     Finding Type
        HTTP' Login and Other Remote Access Logins: This includes
        web pagesthat permit users to login into th;e web server.
                                                                            ( Total
                                                                            1 13      1
        CGI~  Script Access: This includes default common gateway               3

      1 interface iest scripts, which should be removed. unnecessary test I
        scripts increase the vulnerability that the scripts can be executed
        andpossibly allow unauthorizeh access to the web server.
                                                                           I          1
        DefaultIError Pages: These pages disclose unnecessary                   3


      1
        information abo;t the web server such as web application, file
        transfer protocol, and version. This information allows
        unauthorized users to develop vulnerabilities.
                                                                           1          1
      , Source Code Disclosure: This included discoverv of s a m ~ l e          2
        directories and web server code that could lead tb exploiiation or
      , disabling of the web services.


 HyperText Transfer Protocol
 Common Gateway Interface
Also, analyses of our network scans of the secured public network identified 228 hosts
with a total of 162 security holes and 809 securitywarnings.' The majority of these
weaknesses stem from ports 80,443, and 22, as well as from outdated versions of software,
failure to apply patches and possible default installations. These ports are used for web
services and file transfer purposes.

Routers and Firewall Conjguration

As part of our network assessment we evaluated two network devices, the Smithsonian
core router (ai-corel) and the primary internet firewall (ai-inetl). While performing the
audit, the Office of the Chief Information Officer was in the process of replacing and
upgrading its network devices. As a result, the findings presented are generic to a network
device and apply to the functions that the router and firewall are performing and,
therefore, not directly related to the specific device vendor. From our network device
configuration analyses, we determined that several services and configurations could be
improved and considered when implementing the latest network devices. For example,
we identified seven areas within the configuration of the devices where improvements
should be made.

        The first area is remote management through simple network management
        protocol or SNMP. Enhancements can be made on the access control lists that are
        in place that would further restrict access to this protocol to only those specific
        hosts that require it.
        The second area is a common source of trouble that focuses on services that are
        not necessary for daily operations of the network. Best practices suggest that if a
        service is not necessary it should be disabled or removed.
        The third area has to do with the Cisco authentication, authorization, and
        accounting services and the ability to assign specific user rights to an individual.
        These services help manage the level of privileges each administrator has on the
        device.
        The fourth area is remote administration via telnet. Whenever possible, remote
        administration should be performed only through secure encrypted services. The
        telnet service should be disabled and secure shell should be used in its place as a
        means of secure authentication and administration.
        The fifth area is the access control lists on the interface lines. This area is perhaps
        the most critical because this is where the types of traffic allowed into and out of
        the network are controlled. Specific access control lists need to be put in place
        that will block known types of Internet-based attacks such as IP spoofing, and
        distributed denial of service, and that will control which specific hosts have access
        to resources within the protected network.
        The sixth area is local management of the console and auxiliaryports of the
        routers themselves. Specific access controls and session timeout values need to be
        put in place to control who and what type of connection is allowed at these
        locations.

  A security hole is identified when information can be obtained that would permit an unauthorized user to
read a file, determine the directory structure, or gain easy access to the system. A security warning is a
misconfiguration, known application, or software weakness that can be exploited.
       The seventh and final area involves remote in-band management through the
       virtual terminal lines. Specific access controls also need to be put in place that will
       enforce accountability through individual logins, as well as define which hosts are
       allowed to connect to device services.

During the audit, OCIO staff recognized that improvements were needed and has since
begun addressing these weaknesses. For example, the network infrastructure is in the
process of being upgraded into trusted zones, and a more robust firewall and intrusion
detection system are being installed. Additional staff has also been added to oversee and
monitor network security.

Until all weaknesses are addressed and corrective plans are in place, SI computers
residing on the SI network are at risk of unauthorized access, denial of services, and
unnecessary information disclosure of Smithsonian computer system resources.

Conclusion

Based upon our network reviews, we believe that the Office of the Chief Information
Officer can improve network security by introducing additional vulnerability assessments
in its network administration. Implementing periodic security assessments can assist in
identifying weaknesses and preventing system compromises.

Recommendations

1. We recommended that the Chief Information Officer establish a process for
   performing periodic network vulnerability scans of its secure public accessible
   network.

Management Comments

Concur. OCIO staff is currently analyzing alternative methods and products for
performing periodic network vulnerability scanning. OCIO plans to acquire a network
scanning product in 2005. The process for performing periodic network vulnerability
scanning will be defined in a Technical Note.

Target Completion Date: October 30,2005.

Office of the Inspector General Response

We believe the Chief Information Officer's planned actions, if implemented, are
responsive to the recommendation.


2. We recommended that the Chief Information Officer review the identified open ports
   and available services and close those that are deemed unnecessary.
Manapement Comments

Concur. OCIO staff will review identified open ports and services and close those that are
deemed unnecessary.

Target Completion Date: April 30,2005.

Office of the Inspector General Response

We believe the Chief Information Officer's planned actions, if implemented, are
responsive to the recommendation.


3. 	 We recommended that the Chief Information Officer address and correct the server
     and workstation security holes identified.

Management Comments

Concur. OCIO staff will review the server and workstation security holes identified in the
report and correct those that have not already been corrected.

Target Completion Date: April 30,2005.


4. 	 We recommended that the Chief Information Officer review network device
     configurations to ensure they are securely configured to industry standards.
Management Comments

Concur. OCIO staff has reviewed network device configuration files to improve security.
Beginning in 2005, OCIO will formally review all network device configuration files
twice a year or when major changes are made in the network devices. Procedures will be
defined and documented in a Technical Note.

Target Completion Date: April 30,2005.

Office of the Inspector General Response

We believe the Chief Information Officer's planned actions, if implemented, are
responsive to the recommendation.
B. Review of Operating Svstems and Oracle Database Application Securitv
Configurations

SI server operating and application system security configurations can be strengthened.
Specifically,both Windows and Solaris UNIX operating systems could be strengthened to
industry security standards. This condition exists partially because, at the time of our
testing, there were no specific technical configurations for UNIX operating system and
Oracle databases. Technical configuration standards have since been developed for UNIX
operating systems and Oracle databases. In any event, the systems are vulnerable to
unauthorized access and data integrity is at risk.

Details of Review

As part of our system security review we performed security configuration evaluations of
operating systems, web service applications, and Oracle databases. From our evaluations
we determined that SI systems could be strengthened to meet industry security standards.

Operating Systems

We compared server operating system configurations and settings against Smithsonian
and industry standards and guidance. We assessed seven Windows servers and seven
UNIX servers' operating systems against these standards. In addition, we used the SANS
Top 20 Internet Security Vulnerabilities as a basis for our risk as~essment.~

For the Windows servers, our evaluation included assessing if security patches and
hotfixes were installed and up-to-date for the Windows operating system and, if
applicable, for Internet Explorer, Internet Information System, Microsoft Data
Component, and Microsoft Media Player. Our evaluations determined that of the 74
operating system configuration tests performed, over 60 percent failed on each server.
Specifically, compared to the SANS Top 20 security risks, our analyses revealed that
security patches were not up-to-date; password policy was not being followed; registry,
directory, and file permissions were not securely set; and that those servers with Internet
Information Services installed contained an arbitrary command execution vulnerability.




 The SANS (SysAdmin, Audit, Network, Security Institute) was established in 1989 as a cooperative
system security and research and education organization. The SANS Top 20 vulnerability list for Windows
and UNIX is composed of the 10 most commonly exploitable vulnerable services for both Windows and
UNIX.
The following table summarizes our Windows operating system assessment.




                                                 n with other events is high enough to cause a business disruption, if
                                                 security to an acceptable level of risk.




For the UNIX servers (all were SUN Solaris UNIX versions), we used the UNIX Security
Checklist from the Coordination Center at Carnegie Mellon Software Engineering
Institute as the industry standard for comparison. From our assessments, we determined
that the operating systems were not up-to-date with patches. In fact, all seven had
installed patches that, according to the SUN Solaris website, were three months to a year
out-of-date. In general, we found that numerous system services were operating at higher
than necessary privileges. For example, one of the production enterprise resource
planning servers had rlogin, shell, and uucp services7running as default, which is not
recommended. Other enterprise resource planning servers had numerous default open
ports and services enabled and were running with root permissions such as finger, login,
shell, echo, discard, and chargen. The combination of these ports and services makes the
system vulnerable to denial of service risks. One of the most severe vulnerabilities
involving the enterprise resource planning servers is the ability for remote logon in the
highest privileged mode of root. Direct remote logon as root is strictly forbidden by
industry standards. Also, the UNIX operating system provides the enabling of password
policies; however, these security settings were not enabled or defined by Smithsonian
password policy of eight characters, but were set for six characters.


7 The rlogin and rsh services establish a remote login session from trusted users without a password
challenge. These servers use inadequate authentication based on IP address security (which can be
spoofed), domain name service security (which can be spoofed) and the notion of reserved ports (on UNIX
systems only user root can open the client port). The uucp is a Unix-to-Unix system copy server, which
supports networking over the network. It isused for file copying. It runs as user root and might be
compromised. If it is not needed it should be disabled.
The following summarizes the seven UNIX operating systems reviewed.




   I(*)1: SIERP PD1,2: SIERP PA1,3: SIERP PA2,4: SIERP PA3,5: SIERP PA4,6: si-webmaiol, 7: si-webmail02   I
Oracle Database

We assessed the Oracle database that supports the enterprise resource planning system
against industry security configuration standards. Our assessment included reviewing 51
configuration settings. From our assessments, the Oracle configuration could be
strengthened with regard to logging, audit trails, and password encryption and
limitations. The following table represents a summary of the configuration tests.
Conclusion

Based upon our operating system and database configuration reviews, we believe that the
Office of the Chief Information Officer can improve its system security configurations by
introducing additional vulnerability assessments in its system administration to assist in
identifying weaknesses and strengthening system security.

Recommendations

1. 	 We recommended that the Chief Information Officer review the servers and
     workstations to ensure that all patches and updates are installed for the operating
     systems and applications.

Manaeement Comments

Concur. OCIO staff will review identified servers and workstations to ensure that
uninstalled patches and updates identified in the report have been corrected and take
action to install patches and updates where needed.

Target Completion Date: April 30,2005.

Office of the Inspector General Response

We believe the Chief Information Officer's planned actions, if implemented, are
responsive to the recommendation.


2. 	 We recommended that the Chief Information Officer review the Windows and UNIX
   servers to ensure the operating systems are securely configured to industry standards
   and remove unnecessary services and ports.

Management Comments

Concur. OCIO staff began reviewing Windows and UNIX server configuration files to
improve their security in September 2004. Beginning in 2005, OCIO will formally
review Windows and UNIX server configuration files twice a year or when major
changes are made. Procedures will be defined and documented in a Technical Note.

Target Completion Date: April 30, 2005.

Office of the Inspector General Response

We believe the Chief Information Officer's planned actions, if implemented, are
responsive to the recommendation.
3. 	 We recommended that the Chief Information Officer review the Oracle database
     servers to ensure the database application is securely configured to industry standards.


Management Comments

Concur. OCIO staff will review Oracle database servers to ensure that database
applications are securely configured.

Target Completion Date: April 30,2005.

Office of the Inspector General Response

We believe the Chief Information Officer's planned actions, if implemented, are
responsive to the recommendation.
Appendix A. Policies and Industry Standards

We evaluated SI system security from November 14,2003, through December 3,2004.
We used Smithsonian Directives as well as industry guidance and standards from the
NIST, Government Accountability Office (formerly the General Accounting Office),
National Security Agency, and Microsoft Corporation. The evaluation included a review
of server operating system configurations, web server application configurations,
databases, user accounts, network ports, and vulnerable services.

Smithsonian Directive 115, Management Controls, revised July 23, 1996, lists standards
that apply to all Institution units. The directive requires managers to take systematic and
proactive steps to develop and implement appropriate, cost-effective management
controls. These controls should provide reasonable assurance that assets are safeguarded
against waste, loss, unauthorized use, and misappropriation.

Smithsonian Directive 931, Use ofcomputers e+ Networks, August 5,2002, provides
Institution policy on computer safeguards to protect Smithsonian equipment and data.
Users are required to use safeguards that include having a password with at least eight
alphanumeric and special characters. Passwords must not be found in a dictionary, easily
guessed, or left in writing in the user's office. In addition, passwords should be changed
every ninety days and not reused.
Smithsonian Institution Office of the Chief Information Officer Technical Note: IT-930-
TN02, Auditing e+ Logging Procedures, September 8,2003, describes the configuration,
settings, size and frequency of log review for all auditable systems. This technical note
covers all network devices (e.g., routers, switches), network servers, file servers, database
servers, application servers, firewalls and intrusion detection systems. The objective is to
establish a standard frequency for monitoring audit logs.

Smithsonian Institution Office of the Chief Information Officer Technical Note: IT-930-
TN04, Disabling and Deleting Dormant Accounts, August 27,2003, establishes procedures
to be used to monitor and disable network accounts at the Smithsonian Institution which
have not been used within the last thirty days, and to delete accounts that have been
dormant for 180 days.

Smithsonian Institution Office of the Chief Information Officer Technical Note: IT-930-
TN08, Implementing Vendor Software Patches/Fixes, August 27,2003, establishes that
system administrators or designated technical staff are required to apply security patches
or fxes in a timely manner. Patches must be installed on production within seven days of
successful completion of testing.

Smithsonian Institution Office of the Chief Information Officer Technical Note: IT-930-
TN10, Minimizing Access to Production Software and Data, August 27, 2003, establishes
procedures by which production data and software can be safeguarded from
unauthorized access, modification, and deletion.

Smithsonian Institution Office of the Chief Information Officer Technical Note: IT-930-
TN12, Password Policy Compliance Testing, August 27, 2003, establishes procedures to be
used to verify compliance with established password usage policies (SD 93 1, Use of
 Appendix A. Policies and Industry Standards (Continued)

 Computers e+ Networks) at the Smithsonian Institution. The goal is to establish a system
 of checks and reports that records and monitors the enforcement of password usage.

 Smithsonian Institution Office of the Chief Information Officer Technical Note, Windows
 2000 Server Baseline Configuration /Build Notes Application Server Edition Version I . 1,
 November 4,2003, provides setup and configuration guidelines and baselines for the
 standalone Windows 2000 application servers used in the Smithsonian Institution web
 infrastructure. The purpose of this guidance is to serve as a step-by-step guide and check-
 list for building a well-configured and secure Windows 2000 Server with associated
 infrastructure applications.

 Computer Emergency Response Team, Carnegie Mellon Software, UNIX Security
 Checklist v2.0, October 8,2001, provides detailed steps to improve the security of Unix
 Operating Systems. It encourages system administrators to review all sections of this
.	
 document and if appropriate modify their systems accordingly to f~ potential
 weaknesses. If possible, apply this checklist to a system before attaching it to a network.
 In addition, it is recommended that the checklist be used on a regular basis as well as after
 installation of any patches or new versions of the operating system.

 General Accounting Office (now the Government Accountability Office), Financial
 Information Systems Control Audit Manual, January 1999, provides guidance in evaluating
 computer-related controls. The guidance describes access controls to provide reasonable
 assurance that computer resources are protected against unauthorized modifications,
 disclosure, loss, or impairment. Such controls include physical controls, such as locking
 computer rooms to limit access. Inadequate access controls diminish the reliability of
 computerized data and increase the risk of destruction or inappropriate disclosure of
 data.

 National Security Agency, Guide to SecuringMicroso)? Windows 2000 File and Disk
 Resources, April 19,2001, recommends that all volumes use new technology file system in
 order to achieve the highest level of security. Under Windows 2000, only new technology
 file system supports discretionary access control to the directories and files. New
 technology file system volumes provide secure and auditable access to the files.
 Therefore, any file allocation table partitions should be converted to new technology file
 system.

 NIST Special Publication 800- 18, Guide for Developing Security Plans for Information
 Technology Systems, December 1998, states that the objective of system security planning
 is to improve the protection of information technology resources. All federal systems
 have some level of sensitivity and require protection as part of good management
 practice. According to NIST, system security plans should document the protection of
 the system.
Appendix A. Policies and Industry Standards (Continued)

Additionally, the completion of system security plans is a requirement of the Office of
Management and Budget Circular A- 130, Management of Federal Information Resources,
Appendix 111, Security of Federal Automated Information Resources, and Public Law 100-
235, Computer Security Act of 1987. The purpose of the security plan is to provide an
overview of the security requirements of the system and describe the controls in place for
meeting those requirements. The system security plan also delineates the responsibilities
and expected behavior of all individuals who access the system.

NIST, Guidelines on Securing Public Web Servers, Special Publication 800-44, September
2002, provides guidelines on securing both Apache and Internet Information Services web
server applications. The guidelines include installing permanent fixes (often called
patches, hot fuces, service packs, or updates), and removing or disabling unnecessary
services and applications. Ideally, a Web server should be on a dedicated, single-purpose
host. Many operating systems are configured by default to provide a wider range of
services and applications than required by a Web server; therefore, a Web administrator
should configure the operating system to remove or disable unneeded services. Some
common examples of services that should usually be disabled would include: Windows
network basic inputloutput system (NetBIOS); if not required, file transfer protocol;
telnet; simple management transfer protocol; and software development tools.

NIST special publication, Generally Accepted Principles and Practices for Securing
Information Technology Systems, September 1996, provides instructions,
recommendations, and considerations for government computer security. According to
this publication, security policies and procedures should be in place to protect valuable
resources, such as information, hardware, and software. The security program should
allow for periodic assessments and should ensure that SI system administrators or system
security personnel understand their responsibilities.
Appendix B. Management Comments


          0     Smithsonian Institution
                Office of the Chief Information Officer


                DATE: 	       January 5,2005



                FROM: 	       Dei111isShaw, Chicf Information Officer

                CC: 	         S. Burke. B. Daniels

                SUBJECT: 	    Response to the Dralt Report, Office of the Inspector General Audit A-04-
                              05, Smithsonian lnstitution Nenvork

                Thank you for the opportunity to comment on the draft audit repon on the Smithsonian
                Institution Network. We agree that the Smithsonian Institution Netrvork (SInet)
                security controls can be strengthened. Since the inception of this audit in November
                2003 numerous improvements to network and IT infrastruclure security have been
                implemented. Thc SInet is considerably more secure than when the audit began.

                Planned actions and timclines for completing actions associated with each
                recommendation are contained in the attachment. If you have any questions, please
                contact me at 202-633-2800 or Bruce Daniels at 202-633-6000.
Appendix B. Management Comments (continued)



                                                                                            Attachment


                             Smithsonian Institution Network Audit Recommendations


               Issue 1: Publidy Accessible Network Controls

               Recommendation 1: Establish a process for performing periodic network vulnerability
               scans of its secure public accessible network.

               Comment: Concur. OCIO is currently analyzing alternative methods and products for
               performing periodic network vulnerability scanning. OCIO plans to acquire a network
               scanning product in 2005. The process for perfonning periodic network vulnerability
               scanning will he defined in a'l'echnical Note.

               Target Completion Date: October 30,2005

               Recommendation 2: Review theidentified open ports and available scrvices and close
               those that are deemed unnecessary.

               Comment: Concur. OCIO win review identified open ports and services and close those
               that are deemed unnecessary.

               Target Completion Date: April 30, 2005

               Recommendation 3: Address and correct the server and workstation security holes
               identified.

               Comment: Concur. OCIO will review the server and workstation security holes
               identified in the report and correct those that have not already been corrected.

               Target Completion Date: April 30,2005


                Recommendation 4: Review network device configurations to ensure they are securely
                configured to industry standards.

                Comment: OCIO has reviewed network device configuration files to improve security.
                Beginning in 2005,OCIO will formally review all network device configuration files hvice
                a ycar- or when major changes are made in the network dcvices. Procedures will be
                defined and documented in aTechnica1 Notc.

                Target Completion Date: April 30,2005

                Issue 2: Operating Systems and Orade Database Application Security Configurations

                Recommendation 1: Review the servers and workstations to ensure that all patches and
Appendix B. Management Comments (continued)




              updates are installed lor the operating systems and applications.
              Comment: Concur. OClO will review identified servers and workstations lo ensure that
              uninstalled patches and updates identified in the report have been corrected and take
              action to install patches and updates where needed.

              Target Completion Date: April 30.2005


              Recommendation 2: Reviewthe Windows and UNlX servers to ensure the operating
              systems are securely configured to industrystandards and remove unnecessary services
              and ports.

              Comment: OClO began rev~ewiogWindows and UNlX server configuration files to
              improve their security in September 2004. Beginning in 2005, OCIO will formally review
              Windows and UNXX server configuration files twicc a year- or when major changes are
              made. Procedures will be defined and documented in a Technical Note.

              Target Completion Date: April 30,2005

               Recommendation 3: Review tbe Oracle database servers to ensure the database
               application is securely configured to industrystandards.

               Comment: OCIO will review Oracle database sevcrs to ensure that database applications
               are securely configured,

               Target Completion Date: April 30,2005
